No. 20-1362

=

IN THE

Supreme Court of the Anited States

DAVDRIN GOFFIN,
Petitioner
Vv.

ROBBIE K. ASHCRAFT, ET AL.,
Respondent

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

AMICI CURIAE BRIEF FOR DC JUSTICE LAB,
DC SHY-YAB, HArRRIET’S WILDEST DREAMS,
HELPING OURSELVES TO TRANSFORM,
Lire AFTER RELEASE, AND STND4YOU, INC.
IN SUPPORT OF PETITIONER

CERTIFICATE OF SERVICE

I hereby certify that, pursuant to Supreme Court Rule 29.5(a), the Brief for
Amici Curiae in Support of Petitioner in the above-named matter was sent to the
Supreme Court of the United States by first-class mail, and a copy was served upon
all counsel of record for the parties by first-class mail on April 26, 2021.

DANIEL S. HARAWA JENNA ADAMS

Washington University at St. Louis JOHN WILKERSON

School of Law - Appellate Clinic Arkansas Municipal League
One Brookings Drive 301 W. Second Street

Box 1120 P.O. Box 38

St. Louis, MO 63130 North Little Rock, AR 72115
314-935-4689 501-978-6115

Counsel for Petitioner Counsel for Respondent

  
